a2
APPENDIX A
FILED
United States Court of Appeals Tenth
Circuit
December 2, 2020
Christopher M. Wolpert Clerk of
Court

UNITED STATES OF AMERICA,
Plaintiff - Appellee
v.
ALEXANDER CHRISTIAN MILES,
Defendant - Appellant.
No. 20-6150
(D.C. No. 5:06-CR-00096-HE-l)(W.D. Okla.)
ORDER AND JUDGMENT
[*1]
Before TYMKOVICH, Chief Judge, LUCERO and
McHUGH, Circuit Judges.
This matter is before the court on the government’s
motion to enforce the appeal waiver in Alexander
Christian Miles’ plea agreement. We grant the gov­
ernment’s motion and dismiss the appeal.

BACKGROUND
In July 2001, Miles, then 43 years old, applied for a K1 visa to bring his Cambodian fiancee to the United
States, misrepresenting her age as 18 years old when
he knew she was only 14. The visa was granted,
and they moved to New York, where they were
Miles then
married in December 2001.
misrenresented his wife’s age in an application

a3
for adjustment of status. In July 2002, they moved
from New York to Oklahoma. Miles was indicted
shortly thereafter under 18 U.S.C. § 2423(a) for
transporting a minor across state lines with intent to
engage in sexual activity contrary to state law. He
ultimately pleaded guilty to falsely stating his thenfiancee’s age in the K-l visa application, in violation
of 18 U.S.C. § 1001(a)(3). As part of a plea agreement,
the government agreed to dismiss the charge under
§ 2423(a). Miles, in turn, waived his right to “[a]ppeal
or collaterally challenge his guilty plea . . . and any
other aspect of his conviction” as well as “his sentence
as imposed by the Court and the manner in which the
sentence is determined, provided the sentence is
within or below the advisory guideline range
determined by the Court to apply to this case.” Mot.
to Enforce attach. 1 at 5. The court imposed a
of 5 years’ imprisonment and 3 years’
sentence
supervised release. Miles appealed the imposition of
sex-offender conditions, and we affirmed. United
Miles, 411 F. App’x 126, 127 (10th Cir.
States v.
2010). Miles has since spent the past decade seeking
post-conviction relief He first filed a 28 U.S.C. § 2255
motion, which the district court denied based upon the
collateral-challenge waiver in Miles’s plea agreement.
We denied a certificate of appealability (COA). United
States v. Miles, 546 F. App’x 730, 731 (10th Cir. 2012).
After he was released from custody in 2013, Miles
petitioned for a writ of coram nobis, The district
court again enforced the collateral-challenge waiver
United
and denied the petition. We affirmed.
States v. Miles, 553 F. App’x 846, 847 (10th Cir.2014).
Miles then filed a second petition for a writ of coram
nobis, which the district [*2] court denied based on the

a4
collateral-challenge waiver, the abuse-of-the-writ
doctrine, and a lack of merit. We affirmed based on the
abuse-of-the-wfit doctrine and did not address the
other grounds. United States v. Miles, 923 F.3d 798,
800-01 (10th Cir. 2019). Finally, in 2020, Miles filed a
Motion for Clerical Error correction and Vacation of
Conviction, contending, as he did in his prior filings,
that his misrepresentations about his wife’s age were
immaterial. The district court again denied the
motion based on the collateral-challenge waiver, the
abuse-of-the-writ doctrine, and a lack of merit. Miles
timely appealed.
DISCUSSION
The government has moved to enforce the appeal
waiver in Miles’s plea agreement under United States
v. Hahn, 359 F.3d 1315 (10th Cir. 2004) (en banc) (per
curiam). Under Hahn, we consider “(1) whether the
disputed appeal falls within the scope of the waiver of
appellate rights; (2) whether the defendant knowingly
and voluntarily waived his appellate rights; and (3)
whether enforcing the waiver would result in a
miscarriage of justice.” Id. at 1325; see also United
States v. Viera, 674 F.3d 1214, 1217 (10th Cir. 2012)
(applying Hahn analysis to denial of § 2255 claim
based on collateral-challenge waiver). In his pro se
to the government’s motion, Miles
response l1
contends only that his appeal does not fall within the
scope of his appeal waiver.2 He argues that because
1. Because Miles is pro se, we liberally construe his filings but
will not act as his advocate. See Yang v. Archuleta, 525 F.3d 925,
927 n.l (10th Cir. 2008).
2 We therefore do not address the remaining two factors under
Hahn—whether the waiver was voluntary and whether enforce­
ment would result in a miscarriage of justice. See United States
v. Porter, 405 F.3d 1136,1143 (10th Cir. 2005) (noting this court

a5
the recommended sentence under the Sentencing
Guidelines was 0 to 6 months and because the district
court imposed a sentence of 60 months, he is “entitled
to challenge both his conviction and his sentence on
account of the District Court’s upward variance.”
Resp. at 6. But the exception to his waiver based
on an upward variance from the Guidelines
applies only to challenges to his sentence, not
his conviction. See Mot. to Enforce attach. 1 at 5
(waiving the right to “[a]ppeal[]
[or] collaterally
challenge . . . his sentence as imposed by the Court
and the manner in which the sentence is determined,
provided the sentence is within or below the advisory
guideline range determined by the Court to apply to
this case” (emphasis added)); see also id. at 6 (“It is
provided that defendant specifically does not waive
the right to appeal a sentence above the advisory
guideline sentencing range determined by the Court
to apply to this case.” (emphasis added)). An upward
variance has no bearing on his waiver of his right to
“[a]ppeal or collaterally challenge his guilty plea . . .
Id. at 5.
and any other aspect of his conviction.”
Here, Miles plainly is challenging his
conviction, not his sentence. See Resp. at 3
(describing his current challenge as being based on a
2019 U.S. Senate Report, which he alleges “provides
newly available evidence that no reasonable fact
finder could have found him guilty of a material
misrepresentation in violation of 18 U.S.C. [*4]
§1001(a)(3)” (emphasis added)); id. at 9 (arguing the
waiver does not bar him “from insisting that his plea
does not need to address a Hahn factor that the defendant does
not contest).

a6
agreement be rescinded and his conviction reversed”
(emphasis added)). In fact, Miles admits he “has fully
completed his sentence.” Id. at 8. Accordingly, the
exception to his appeal waiver does not apply, and this
appeal “falls within the scope of the waiver.” Hahn,
359 F.3d at 1325. We therefore enforce Miles’s appeal
waiver and grant the government’s motion to
dismiss.
FILING RESTRICTIONS
The government also requests that we impose filing
restrictions on Miles due to his pattern of abusive
litigation. Miles opposes restrictions, first on the
ground that he “does not expect to burden the federal
judiciary with future pleading.”3 Resp. at 19. But if
true, then he can hardly complain about restrictions
on future filings. Miles also argues his claim of newly
discovered evidence was “neither disingenuous □ nor
frivolous.” Id. But he fails to acknowledge that his
claim was barred by his collateral-challenge waiver
and that his present appeal was barred by the appeal
waiver. He also fails to address his vexatious litigation
history spanning the past ten years, which the
government aptly described in its motion, see Mot. to
Enforce at 12 (“Despite agreeing that he would not
challenge his conviction collaterally, including the
current time, Dr. Miles has challenged his conviction
3. In his most recent appeal, however, this court found that Miles
made “knowing and material misrepresentations in [his] filings,”
including his coram nobis petition and supporting affidavit.
Miles, 923 F.3d at 805 n.2. We thus directed the Clerk to send
copies of the opinion the State Bar of California, where Miles had
been licensed to practice law, and the medical boards of four
states where he was licensed to practice medicine so they could
determine whether to take any disciplinary action.

a7
[*5] collaterally on four occasions, claiming in each
attack that the lies he told the INS were immaterial.
This Court rejected his argument twice on the merits
and held on a third occasion^ that his argument
constituted an abuse of the writ.” (citations omitted)).
“Federal courts have the inherent power to regulate
the activities of abusive litigants by imposing
carefully tailored restrictions under appropriate
circumstances.” Ysais v. Richardson, 603 F.3d 1175,
1180 (10th Cir. 2010). Filing restrictions may be
imposed when: “(1) the litigant’s lengthy and abusive
history is set forth; (2) the court provides guidelines
as to what the litigant must do to obtain permission to
file an action; and (3) the litigant received notice and
court’s order before it
an opportunity to oppose the
is instituted.” Id. (internal quotation marks omitted).
This court proposes to enjoin Miles from filing any
further pro se filings with this court that raise the
same or substantially similar issues arising out of the
same criminal conviction or the same or similar set of
facts and circumstances as asserted in the present
appeal or in his prior appeals, including Nos. 12-6011,
13-6110, and 18-6119, unless he obtains permission to
do so. To obtain the court’s permission, Miles must
take the following steps:
1. File a petition with the clerk of this court
requesting leave to file a pro se proceeding;
2. Include in the petition the following
information:
A list, by case name, number, and
a.
citation where applicable, of all
proceedings currently pending or
previously filed in this court by Miles,
with a statement indicating the current

a8
status or disposition of each proceeding;
and [*6]
b.
A list apprising this court of all
outstanding
injunctions,
contempt
orders, or other judicial directions
limiting his access to state or federal
court, including orders and injunctions
requiring him to be represented by an
attorney; said list to include the name,
number, and citation, if applicable, of all
such orders and injunctions;
3. File with the clerk a notarized affidavit, in
proper legal form, which recites the issues he
seeks to present, including a particularized
description of the order or ruling being
challenged and a short statement of the legal
basis asserted for the challenge. The affidavit
must also certify, to the best of his knowledge,
that the legal arguments advanced are not
frivolous or made in bad faith; that they are
warranted by existing law or a good faith
argument for the extension, modification, or
reversal of existing law; that the appeal or
other proceeding is not interposed for any
improper purpose; and that he will comply with
all federal appellate rules and local rules of this
court.
These documents shall be submitted to the clerk of
this court, who shall forward them to the court for
review to determine whether to permit the pro se
or other proceeding. Without the court’s
appeal
approval, the matter will not proceed. If the court
approves the submission, an order will be entered
shall proceed in
indicating that the matter

a9
accordance with the Federal Rules of Appellate
Procedure and the Tenth Circuit Rules. Only then
will the appeal or other proceeding formally be filed
in this court.
CONCLUSION
We grant the government’s motion to enforce Miles’s
appeal waiver and dismiss this appeal. Moreover, the
filing restrictions set forth herein shall be [*7]
imposed on Miles twenty days from the date of this
order and judgment unless this court orders otherwise
upon review of any objections.
Entered for the Court Per Curiam
[Emphasis added].

alO
APPENDIX B
CONSTITUTIONAL AND STATUTORY
ADDENDUM
The Fifth Amendment to the U.S. Constitution
provides, in relevant parts:
No person shall be held to answer for a capital,
or otherwise infamous crime, unless on a pre­
sentment or indictment of a Grand Jury * *k 'k
nor be deprived of life, liberty, or property,
without due process of law ie *
The Sixth Amendment to the U.S. Constitution
provides, in relevant parts:
In all criminal prosecutions, the accused shall
enjoy the right * * * to be informed of the nature and cause of the accusation * * *
The Federal Rules of Criminal Procedure, Rule 7(e),
provides:
Amending an Information. Unless an addi­
tional or different offense is charged or a sub­
stantial right of the defendant is prejudiced,
the court may permit an information to be
amended at any time before the verdict or
finding.
28 U.S.C. §2255 (h) provides:
A second or successive motion must be certi­
fied as provided in section 2244 by a panel of
the appropriate court of appeals to contain—
(1) newly discovered evidence that, if proven
and viewed in light of the evidence as a whole,
would be sufficient to establish by clear and

all
convincing evidence that no reasonable fact­
finder would have found the movant guilty of
the offense; or
(2) a new rule of constitutional law, made
retroactive to cases on collateral review by the
Supreme Court, that was previously unavail­
able.
Rule 11 of the Federal Rules of Criminal Procedure
provides in relevant parts:
(b) Considering and Accepting a Guilty or
Nolo Contendere Plea.
(1) Advising and Questioning the Defendant.
Before the court accepts a plea of guilty or nolo
contendere, the defendant may be placed
under oath, and the court must address the
defendant personally in open court. During
this address, the court must inform the de­
fendant of, and determine that the defendant
understands, the following:
(A) the government's right, in a prosecution
for perjury or false statement, to use against
the defendant any statement that the
defendant gives under oath;
(B) the right to plead not guilty, or having
already so pleaded, to persist in that plea;
(C) the right to a jury trial;
(D) the right to be represented by counsel—
and if necessary have the court appoint
counsel—at trial and at every other stage of
the proceeding;
(E) the right at trial to confront and crossexamine adverse witnesses, to be protected
from compelled self-incrimination, to testify

al2
and present evidence, and to compel the
attendance of witnesses;
(F) the defendant's waiver of these trial
rights if the court accepts a plea of guilty or
nolo contendere;
(G) the nature of each charge to which the
defendant is pleading;
(H) any maximum possible penalty,
including imprisonment, fine, and term of
supervised release;
(I) any mandatory minimum penalty;
(J) any applicable forfeiture;
(K) the court's authority to order
restitution;
(L) the court's obligation to impose a special
assessment;
(M) in determining a sentence, the court's
obligation to calculate the applicable
sentencing-guideline range and to consider
that range, possible departures under the
Sentencing Guidelines, and other sentencing
factors under 18 U.S.C. §3553(a):
(N) the terms of any plea-agreement
provision waiving the right to appeal or
to collaterally attack the sentence; and
(O) that, if convicted, a defendant who is not
a United States citizen may be removed from
the United States, denied citizenship, and
denied admission to the United States in the
future.
Plea
Is
That
a
(2) Ensuring
Voluntary. Before accepting a plea of guilty or
nolo contendere, the court must address the
defendant personally in open court and

al3
determine that the plea is voluntary and did
not result from force, threats, or promises
(other than promises in a plea agreement).
(3) Determining the Factual Basis for a
Plea. Before entering judgment on a
guilty plea, the court must determine
that there is a factual basis for the plea.
(e) Finality of a Guilty or Nolo
Contendere Plea. After the court imposes
sentence, the defendant may not withdraw a
plea of guilty or nolo contendere, and the plea
may be set aside only on direct appeal or
collateral attack.
(f) Admissibility or Inadmissibility of a
Plea, Plea Discussions, and Related
or
admissibility
Statements. The
inadmissibility of a plea, a plea discussion,
and any related statement is governed
by Federal Rule of Evidence 410.
(g) Recording
the
Proceedings. The
proceedings during which the defendant
enters a plea must be recorded by a court
reporter or by a suitable recording device. If
there is a guilty plea or a nolo contendere plea,
the record must include the inquiries and
advice to the defendant required under Rule
11(b) and (c).
(h) Harmless Error. A variance from the
requirements of this rule is harmless error if
it does not affect substantial rights.
[Emphasis added].

al4
APPENDIX C
SUPERCEDING INFORMATION
THE UNITED STATES ATTORNEY CHARGES:
In or about February of 2002,
- ALEXANDER CHRISTIAN MILES, M.D. knowingly and willfully made and used a false writing
and document knowing the same to contain a materi­
ally false entry, in that, on an affidavit of support of
an application for a K1 Visa by S.K., the defendant
stated that SK was 18 years of age when he knew she
was 18 years of age. The affidavit was a matter within
the jurisdiction of the Immigration and Naturalizat­
ion Service, part of the Executive Branch of the
government of the United States.
All in violation of Title 18, United States Code, Section
1001(a)(3).
JOHN C. RICHTER
United States Attorney
/s/ Randal A. Sengel
RANDAL A. SENGEL
Assistant U.S. Attorney

al5

APPENDIX D
PLEA AGREEMENT
[excerpts]
Introduction
1. This document contains the entire plea agreement
between defendant, Alexander C. Miles, and the
United States through its undersigned attorney. No
other agreement or promise exists, nor may any
additional agreement be entered into unless in
writing and signed by all parties. Any unilateral
modification of this agreement is hereby
rejected by the United States. This agreement
applies only to the criminal violations described
and does not apply to any civil matter or any civil
forfeiture proceeding except as specifically set forth.
ie

ie

*

Guilty Plea
2. Defendant agrees to enter a plea of guilty to a onecount Information charging making false statements
in violation of 18 U.S.C. § 1001(a)(3). To be found
guilty of violating 18 U.S.C. § 1001(a)(3), as charged
in the Information, defendant must admit that, in a
matter within the jurisdiction of the United States, he
knowingly and willfully made or used a false writing
or document, knowing the same to contain a
materially false and fictitious statement or entry.
Thus, the defendant must admit that he knowingly
and willfully made or used a false Affidavit of
Support for an Alien Fiance Visa application for
S.K.; that the Affidavit made a materially false and
fictitious statement that the age of S.K. was eighteen
when he knew she was under eighteen years of age;
and that the Affidavit and Visa application are

al6
matters within the jurisdiction of the Executive
Branch of the Government of the United States.
* * *

Waiver of Right to Appeal and Bring a Collateral
Challenge
8. * * * Defendant further understands that Title 28,
United States Code, Section 1291, and Title 18,
United States Code, Section 3742, give him the right
to appeal the judgment and sentence imposed by the
Court. Acknowledging all this, defendant in exchange
for the promises and concessions made by the United
and
States in this plea agreement, knowingly
voluntarily waives his right to:
a. Appeal or collaterally challenge his guilty plea,
sentence and restitution imposed, and any other
aspect of his conviction, including but not limited to
any ridings on pretrial suppression motions or any
other pretrial dispositions of motions and issues;
b. Appeal, collaterally challenge, or move to modify
under 18 U.S.C. § 3582(c)(2) or some other ground, his
sentence as imposed by the Court and the manner in
which the sentence is determined, provided the
sentence is within or below the advisory guideline
range determined by the Court to apply to this case.
Defendant acknowledges that this waiver remains in
full effect and is enforceable, even if the Court rejects
one or more of the positions of the United States or
defendant set forth in paragraph 7.
* * *

12. The defendant waives any claim that venue is not
proper in the Western District of Oklahoma.
Defendant also waives all defenses based on the
statute of limitations with respect to Count 1 of

al7
the Information referenced in paragraph 2 of
this agreement.
* * *

[Emphasis added].

al8
APPENDIX E
IN THE UNITED STATES DISTRICT COURT FOR
THE WESTERN DISTRICT OF OKLAHOMA
TRANSCRIPT OF PLEA OF GUILTY HAD ON
JUNE 24TH, 2009 BEFORE THE HONORABLE
JOE HEATON, U.S. DISTRICT JUDGE,
PRESIDING
[Excerpts]
APPEARANCES:
Mr. Randal A. Sengel, U.S. Attorney's Office, 210
West Park Avenue, Suite 400, Oklahoma City, OK
73102, appearing on behalf of the United States of
America.
Mr. J.W. Coyle, III, Coyle Law Office, 125 Park
Avenue, Fifth Floor, Oklahoma City, OK 73102,
appearing on behalf of the defendant.
(The following was had in open court on
June 24, 2009:)
THE COURT: Good morning. Looks like we've got the
lights down a little low here. I don't know what the
reason for that is but we'll forge ahead in any event.
We're here on United States versus Miles, Criminal
Case 06-96. Could I have appearances, please.
MR. SENGEL: Randy Sengel for the United States.
MR. COYLE: John W. Coyle on behalf of Dr. Miles.
THE COURT: All right. Mr. Coyle, if you and your
client would step to the podium, we'll move ahead
here.
MR. COYLE: Yes, sir.
THE COURT: Mr. Sengel, have the victims of this
offense been notified of the hearing?
MR. SENGEL: They have, your Honor.

al9
THE COURT: And I would assume that there are no
victims with respect to the charge alleged in the
superseding information. But the -MR. SENGEL: The victim I believe technically, of
course, would be the government; however, we,
have, nevertheless notified the individual named in
the indictment.
THE COURT: Of the original charge?
MR. SENGEL: Of the original indictment. That's
correct.
THE COURT: All right. And have you had any
indication that that person wants to be heard in
connection with this?
MR. SENGEL: No, your Honor.
THE COURT: All right. Sir, you are Alexander
Christian Miles; is that correct?
THE DEFENDANT: That is correct.
THE COURT: How old are you, Mr. Miles?
THE DEFENDANT: Currently 51.
THE COURT: I should say Doctor. You're Dr. Miles.
Dr. Miles, are you taking any medications or under
the influence of drugs or alcohol or anything that
would affect your ability to understand these
proceedings here this morning?
THE DEFENDANT: No.
THE COURT: If at any point during the course of this
hearing I should ask you anything that you don't
understand or that you're unclear about, would you be
sure and let me know that so that I can be certain that
we understand each other?
THE DEFENDANT: Yes.
THE COURT: I understand it's your intention to
enter a guilty plea to a superseding information

a20
that was filed on June 19th of 2009. Have you
received a copy of that superseding information?
THE DEFENDANT: Yes, sir.
THE COURT: And you’ve gone over that with
your lawyer?
THE DEFENDANT: Yes, sir.
THE COURT: Mr. Sengel, if you would, please,
state for the record the substance of the charge
to which the defendant will be pleading and also
the potential punishment.
MR. SENGEL: Yes, your Honor.
The information charges that in or about February of
2002, Alexander Christian Miles knowingly and
willfully made and used a false writing and document
knowing the same to contain a materially false entry.
The matter was within the jurisdiction of the
Immigration and Naturalization Service, part of
the executive branch of the government of the
United States. All in violation of Title 18 United
States Code, Section 1001(a)(3).
The maximum penalty that could be imposed upon
conviction is not more than five years in prison, or a
$250,000 fine, or both such fine and imprisonment,
not more than three years of supervised release, the
conditions of which if violated could lead to an
additional period of imprisonment, and a $100 special
assessment.
THE COURT: Mr. Coyle, do you agree with that
description of the charge and the potential
punishment?
MR. COYLE: Yes, your Honor.
THE COURT: Dr. Miles, I would advise you that
you're not required to make any statement at this
time, and any statement that you do make could

r

a21
potentially be used against you in a prosecution for
perjury if you should testify falsely in any respect.
With that reminder, I would ask that you raise your
right hand and be sworn by the clerk.
(Defendant sworn)
THE COURT: Dr. Miles, the purpose of this hearing,
of course, is to give you the opportunity to enter the
guilty plea that you've indicated you want to enter,
but it's also for the purpose of me being certain that
you understand the significance of doing that, and
that you are fully aware of the constitutional rights
that you would be waiving with a guilty plea. So I
want to cover those with you at this time to be certain
that your understand the rights that you would be
giving up with a guilty plea.
First of all, you are charged in this - the present
charge to which you would be entering a plea is
proffered by a superseding information. Because
the charge is a felony charge, you have the right to be
charged by indictment, which means that you would
be -- your case would be presented to a grand jury
composed of 16 to 23 citizens, and at least 12 of them
would have to agree there's probable cause to believe
that you committed the crime charged. In order for
you to proceed on the information that's been filed
here you would have to waive your right to be charged
by indictment. Is that your desire?
THE DEFENDANT: Yes. I'm waiving my right.
THE COURT: All right. I have here at the desk a
written waiver of indictment that appears to have
your signature on it. Is that in fact your signature on
that document?
THE DEFENDANT: That is in fact my signature, sir.

a22
THE COURT: You, of course, have the right to enter a
plea of not guilty or to stand on a plea of not guilty if
you choose to do that. You understand that?
THE DEFENDANT: I do, sir.
THE COURT: And if you enter a plea of not guilty, you
would have the right to a speedy and public trial by
jury. You would have the right to the assistance of an
attorney at all stages of the proceeding, and if you
can't afford counsel, counsel will be appointed for you
at public expense. Do you understand those rights?
THE DEFENDANT: I understand, sir.
THE COURT: You would have the right to see and
hear the witnesses against you and to cross-examine
the various witnesses, to test the evidence offered
against you in both the testimonial form and
otherwise. You would have the right to utilize the
subpoena powers of the court in order to compel other
persons to appear and testify as witnesses on your
behalf. Do you understand those rights?
THE DEFENDANT: I do, sir.
THE COURT: You would have the right not to
incriminate yourself, which is to say that you would
be under no obligation to take the witness stand, and
the jury would be instructed that they are not to hold
it against you in any way that you elected to stand on
your constitutional rights and not testify. Do you
understand those rights?
THE DEFENDANT: I do, sir.
THE COURT: You would have the right to be and you
would be presumed innocent unless and until your
guilt was established to the unanimous satisfaction of
a 12-person jury beyond a reasonable doubt. Do you
understand that?
THE DEFENDANT: Yes, sir.

I

a23
In pr<
backg
fingerj
may ii
[i]Ifb
fore ti
the fo
tional
Card1*
is not
sary oj
lawfu
dition
*Forri{
monlj)
5. THE |
DENf
OF G
DENi
[i] A (
tion t
tus w
condi
mane
condi
perm
resid
the I
To re
residj
Cond
citizf
requ
tions

'■
!
|
I

i!
i
:
i
:
■
,
i

L,

THE COURT: And with a guilty plea here this
morning you understand that there will be no
trial, and that vou will be found guilty based
purely on vour statements here this morning?
THE DEFENDANT: Yes, sir.
THE COURT: Mr. Coyle, are you satisfied from your
discussions with your client that he fully understands
the charges against him in this case, the possible
punishment, and also the constitutional rights that he
would be giving up with a guilty plea?
MR. COYLE: Yes, your Honor.
THE COURT: And Dr. Miles, do you feel like you fully
understand the charge in this case?
THE DEFENDANT: Yes, sir.
THE COURT: And the potential punishment as
described by Mr. Sengel a few moments ago?
THE DEFENDANT: Yes, your Honor.
THE COURT: And do you feel as well that you fully
understand the constitutional rights that you would
be giving up with a guilty plea?
THE DEFENDANT: Yes, sir.
THE COURT: Well, knowing the nature of the charge
and the rights you will be giving up with a plea, I
would ask you at this time, how do you plead?
THE DEFENDANT: Guilty as charged.
THE COURT: I also have here at the desk in addition
to the indictment waiver that I referred to a moment
ago, I have also what appears to be your waiver of jury
trial, Is that your signature that appears on that
document as well?
THE DEFENDANT: It is, your Honor.
THE COURT: There has also been submitted on your
behalf in connection with the plea a Petition to Enter
Guilty Plea.
That’s the eight- or ten-page

